  IMPLEMENTATION OF THE STATE

 LEGALIZATION IMPACT ASSISTANCE

 GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                  STATE   OF   ARIZONA




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                         DECEMBER 1989
                           OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspector Genera (OIG) is to promote the effciency, effective­
ness, and integrty of progrs in the United States Deparent of Health and Human Ser­
vices (HS). It does this by developing method to detet and prevent fraud, waste, and
abuse. Create by statute in 1976, the Inspector General keeps both the Seceta and the Con­
gress fuly and curntly informed about programs or management problems and recommends
corrtive action. The OIG perform its mission by conducting audits, investigations, and in­
spetions with approxiately 1, 300 sta strategically located around the countr.


                    OFFICE OF     ANALYSIS AND            INSPECTIONS

This report is produced by the Offce of Analysis and Inspections (OAI), one of the three
major offces withn the OIG. The other two are the Offce of Audit and the Offce of Inves­
tigations. Inspections ar conducted in accordace with professional standads developed by
OAI. These inspections ar tyically short-term studies designed to determe program effec­
tiveness, effciency, and vulnerabilty to frud or abuse.

Th study was conducted to determe the effectiveness of Arona s implementation of State
Legalzation Impact Assistace Grats funds awarded under           the Imgrtion Reform and Con­
trl Act of 1986.



The report was prepar under the diction of Don McLaughlin , the Regional Inspector
General of Region VII , Offce of Analysis and Inspections. Parcipatig in this project were
the following people:

Kansas City                                      San Francisco
Hugh Owens,   Project Leader                     Apryl Willams
Raymond Balandron
James Wolf

Headquarters                                     New York
Albert J. Nace                                   Lucile M. Cop
Debra Robinson
Alicia Smith
 IMPLEMENTATION OF THE STATE

LEGALIZATION IMPACT ASSISTANCE

GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                 STATE     OF   ARIZONA




                     Richard P. Kusserow
                    INSPECTOR GENERAL




OAI-   07-8001                             DECEMBER 1989
                                EXECUTIVE SUMMARY


PURPOSE
The purose of this inspection was to determne how effectively Arzona implemented the
State Legalization Impact Assistance Grants (SLIAG) program, to identify potential problems
early in the process, and to identiy goo practices which all States could share.



BACKGROUND

The SLIAG progr was established under the Immgration Reform and Control Act (IRCA)
of 1986 to reduce the fmancial burden of providig public assistance , public health assistance,
and educational services to eligible legalized aliens. In Fiscal Year (FY) 1988, $928. 5 milion
in progr funds were allocated to States, and funds wil contiue to be alocated through
FY 1991. These funds also cover administrative costs for implementing SLIAG at the State
and local levels. Payments ar made for public assistance activities generally available to all
needy individuals and public health assistance services offered under the States ' public health
progrs. The payments also cover educational services designed to assist eligible legalized
aliens to attain a satisfactory level of performce in school and to achieve English language
proficiency and citizenship s ls necessar to become permanent residents. The Family
Support Administrtion (FSA) is responsible for admnistering the program.

Because SLIAG was a new progr, FSA realzed that problems would surface early in its
implementation. In addition to the normal difficulties encountered in creatig new processes
and procedures, FSA recognized that SLIAG would have unique problems. Some of these
issues include the diversity of programs which SLIAG encompasses, cultura and language
barers associated with the service population , maintaning confidentiality of information , and
the extremely short time fraes for the grt award process.



METHODOLOGY

In response to the anticipated diffculties with implementing SLIAG, FSA requested that the
Offce of Inspector General (GIG) conduct reviews in 10 States to determine the progress of
States ' implementing this program. The FSA selected nine States and the Distrct of Columbia
because of the varety of programs they offered, the number of eligible legalized aliens in the
population , or the amount of the grant award. The nine States ar Arizona, California,
Colorado, Florida, TIinois, Massachusetts, New York , Texas, and Washington.
Interviews based on strctured discussion guides for each major program area, as well as
documentation furished by     FSA and State and local offcials, built the base of information for
this report. This report represents the review conducted in Arzona and reports on its
implementing the SLIAG program as of August 1988.

Both FSA and Arzona were committed to identifying problems and developing innovative
and effective solutions for them. Imediately following our on-site visits, FSA was given an
outline of the State concerns identied in this report.


FINDING: Since 
 1987 FSA has held national conferences and issued information to
States on implementing the SLIAG program.

                   The FSA held several national conferences beginning in 1987 to share
                   information with States on SLIAG legislation , the implications for States, the
                   application process, and the documentation of costs.

                   The FSA also provided States with " Question and Answer" issuances and
                   demographic data from the Immigration and Naturalization Service.

FINDING: To faciltate implementing the SLIAG program, Arizona took steps to ensure
that funds control mechanisms were in place.

                   The State established a financial program capabilty in its computer system and
                   in the Arzona Financial Information System. The Arzona Deparment of
                   Administration ensured that appropriate entities had established procedures to
                   identify all expenses and maintained appropriate records.

                   The Arizona Deparment of Health Services used existing contracts with health
                   service providers for the general population to serve eligible legalized aliens and
                   to maintan records of expenditures. The deparent has established separte
                   accounts for each of these providers in the financial information system.

FINDING: The Arizona Department of Education has established a pre-enrollment
appraisal testing program for       eligible aliens.


                   Agencies receiving SLIAG funds wil administer a pre-enrollment appraisal test.
                   This test assesses an eligible legalized alien s abilty to speak and understand
                   English and know United States history and government. The test results wil be
                   used to match the individual' s needs to program resources, instrctional
                   schedules, and referrl servces; establish a level of competency for placement
                   and assessment of progrss; and provide data on the number of individuals
                   served, demographic information, and educational history.
Neverteless, there are some funds control vulnerabilties.


FINDING: The State s plan for claiming public health assistance costs is not in
accordance with program requirements.

              According to the SLIAG regulation , there are thre methods to claim actual
              public health assistance costs. The State s formula is based on the annual budget
              for each program approved by the U. S. Deparent of Health and Human
              Services (HS). This is not one of the methods prescribed by regulations.

FINDING: The FSA' s definition of public assistance includes some public health activities
which created administrative and service delivery problems for Arizona s public health
agencies.

FINDING: The Arizona Department of Education may be claiming nonallowable costs as
SLIAG-related costs for   education.

              The currculum includes instrction to improve the abilty to benefit from
              occupational training and increase opportunities for more productive
              employment. Such vocational education services ar not authorized for SLIAG
              reimbursement.

FINDING: The State has no plans to deduct program income from SLIAG-related costs.

              Educational providers ar permtted to levy a $10 registrtion fee to cover costs
              of SLIAG reporting requirements. The SLIAG regulation states that progr
              income must be excluded from SLIAG-related costs.

FINDING: The FSA application review process created a number of signifcant problems
for Arizona. Also, the FSA' s application review process interfered with the State s ability to
plan for services.



              Delay in FSA issuing the implementing regulation resulted in the State
              inabilty to properly plan for SLIAG.



              Numerous policy misinterpretations and disagreements resulted because FSA
              did not provide definitive wrtten instrctions to assist Arizona in understanding
              SLIAG application requirements.

              The time frames were too short for submitting the initial SLIAG application
              review and comment, and revisions of the application.
             Implementing SLIAG- funded programs was delayed because of a significant
             delay in notifying Arzona of the grant award.

             No formal appeals process exists if progrms or costs ar   denied in   the fIrst level
             review.


As mentioned earlier, FSA and Arzona have alady initiated action on some of the
recommendations made in this report. Steps have been taen by FSA to provide States with
more specific, formal guidelines for identifying and documentig actual program and
admnistrative costs. However, additional actions ar necessar in other areas on the par of
FSA and Arzona.


RECOMMENDATION: The FSA should ensure that costs claimed for public health
assistance are in accordance with one of the methods indicated in the HHS regulations and
not based on budgeted costs.

RECOMMENDATION: The FSA should reconsider its position to classify certain public
health services as public assistance and make appropriate adjustments to this position.

RECOMMENDATION: The FSA should ensure that SLIAG funds are                 being used only for
approved adult education activities.

RECOMMENDATION: Arizona should ensure that program income is properly deducted
from SUAG-related costs before reimbursement is claimed by educational providers.

RECOMMENDATION: The FSA should make its application and grant process more
orderly. Specifcally, FSA should

             provide definitive wrtten instrctions on the SLIAG application requirements
             and establish a dialogue with Arzona on SLIAG policy, compliance, and
             reporting issues to minimize the confusion that occurred in the initial application
             process;

             ensure that sufficient time is allotted to the application process including
             Arizona s initial application , FSA' s review and formal comment, Arizona
             consideration of FSA comments and negotiation of disputes, and its submission
             of the revised application for FSA approval;

             develop an appeals process to use if programs or costs associated with providing
             services are denied in the initial application process; and
                                                              _. .          , .-
                                                                     c..'          " .I':




            revise the grant award process for approved applications so that the notice of
            grant award reaches Arzona prior to the beginning of the fiscal year.


COMMENTS

The FSA and the State of Arzona both commented on the draft report. They generaly agreed
with our findings and recommendations. Both indicated that steps have been taen to improve
implementation of SLIAG. Their comments are included verbatim as appendices B and C.
                                                                                             ....... ... ..... ...
                                                                                  ......................................................
                                                                            .........................................  ........
                                                                                             ........... .......................         ..........




                                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY


I NTRO D U CTIO                N .... II.. II... II .... II..II II...                                                                                     .... ................. D....... 


              PU RPOS E ..... .... .... ....118....8... IIII.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II.. II II.. II II.. II II.. II II II IIII II.. II 1


              BACK G RO UN Dil... II... II.. II II.. II II.. II II.. II II...... II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II.. II II II.. II II.. II II.. II II II.. II II.. II 


                  ETHODO LOG Y II.. II II...... II... IIII... II                                                          II II.. ........ II... II  II........ ... II...... II II.. II II II II IIII.. II 2


ARIZONA' S ORGANIZATIONAL STRUCTURE ......................................                                                                                                                                3



FINDINGS AND RECOMMENDATIONS .................................................................. 5


              PU B LIC              ASSISTANCE ........ ............................................ .................. ..... .... 6


              PU B LIC HEAL TH                               ASSISTANCE................................................................ 8

              ED UCA TI 0 Nil............ ........... .......11..                                                                                          II. .... 1111.a 11.11... .1111.1111.II...   1 0


             CROSSCUTTI NG ISSU ES ......................... ........ ..... ..II...a. 11....11....11.8 11111111.11........ 


OIG RESPONSE TO COMMENTS ...............................11.11........11.1111.........11......110.......... 16


APPENDIX A ............................ ..............................I1... .......IIII..."...............allll..... ..... A - 1


APPEN DIX B ............................................................. .... .... ............11............. ...11..... B­


APPEN DIX C............... ......................                                                                                                                                          ... C - 1

                                      INTRODUCTION



PURPOSE
The Famy Support Admistrtion (FSA)          reueste that the Offce of Inspector General
(OIG) conduct an inspetion in    nie States and the Distrct of Columbia to determe how
effectively the States   implemente the State Legalzation Impact Assistace Grts (SLIAG)
progr awarded under the Imgration        Reform and Control Act (lCA)      of 1986. The
inspetion include reviewig mehansms in place to identi these funds and determg
whether present or projected policies and proedures adere to FSA gudelies. The FSA also
was intereste in identig potential problems early in the process and goo pratices which
al States could shar. This report presents the results of the inspetion perting to the State
of Arzona.


BACKGROUND

Under IRCA, eligible legalze alens may apply for permanent residency within a I- year
period afer they are fIrst eligible (Le., by the 31st month after they receive temporar resident
status).

Ths new population will increase the demand for State public assistace and public health
assistace servces signcantly. It wil also incras the demad for State educational
servces as these new residents obtan English language and civic skills needed to become
  S. citizens.

To help States defray many of the costs of providig public assistace, public health
assistace, and educational servces to eligible legalize aliens, IRCA authorize $1 bilion
each year from Fiscal Year (F) 1988 thugh 1991 for SLIAG grts, less an amount
identied as the "Federa offset. " With few exceptions, eligible legalize aliens ar ineligible
for federaly funded public assistace progrs such as Aid to Famlies with Dependent
Childrn (AFC), foo staps, and Medcaid. The "Federal offset" is the estimated cost to
the Federal Government of providig these services or benefits to those few legalizd aliens
who ar eligible for them. In FY 1988, the law alocated $928. 5 millon to States.

To reeive SLIAG funds, States must apply to the FSA Division of State Legalization
Assistace, which is responsible for approving applications and adnistering the program.
The application must be approved in tota for a State to receive any SLIAG funds. The FSA
also provides States with tehnical assistace on policy issues and on the methods used to
determe costs and verify actual costs.
The basic reuiment for States to claim reimburement is that costs must be alowable,
reasonable, and alocable. State public assistace and public health assistace program must
be the same ones avaiable to. the general public. States cannot crate new program in these
areas specifcaly for eligible legalze alens. However, States may create new or adtional
education progrs for the eligible legalze alen population. States may also claim
reimbursement for progr adstrtive and SLIAG adstrative costs.

Reimburement for public assistace and public health assistace is limite     only to   the amount
of State and local funds expended for SLIAG-relate costs. The maimum SLIAG
reimburement for educational servces is an average of $500 per year per eligible legalze
alen. Determing progr adnistrtive costs should be           ma in accordace with the final
regulation at 45 CP 402. 22.

The FSA is responsible for adnistering the program Because SLIAG was a new program,
FSA real       that problems would surace early in its implementation. In addition to the
norm diculties encountered in creatig new processes and proedures, FSA recogned
that SLIG would have unique problems. Some of these issues include the diversity of
progrs which SLIAG encompasses, cultual and language barers associated with the
service population , maintang confdentiality of information , and the extrmely short
fres    for the grant award process.


METHODOLOGY

The FSA selected nie States and the Distrct of Columbia for the inspection because of the
varety of program offered the number of eligible legalze alens in the population , or the
amount of the grt. The nine States are Arona, Calforna, Colorado, Florida, lllinois,
Massachusetts, New York , Texas, and Washingtn. This repon reviews Arzona
implementation of the SLIAG progr as of August 1988.

Pror to conducting the inspection ,the OIG developed   strctu      discussion guides for each
major program activity at the State and local levels. On-site discussions were held with
offcials frm the aras of public assistace, public health, and education.
                  ARIZONA' S ORGANIZATIONAL STRUCTURE



In Arzona , the Governor has designated the Arzona Deparment of Admnistration as the
responsible admnistering agency for SLIAG. Under the designation, the State comptroller of
the Arzona Deparent of Admistration is specifically authorized to apply for and accept
SLIAG funding and to provide assurance and certfication , as required by Federal regulations,
to the U. S. Deparment of Health and Human Services (HS). The State comptroller serves
as the single point of contact and has overall responsibilty for the SLIAG progrm. In
Arizona, the single point of contact is not actively involved in the day-to- day activities of
administering SLIAG, but rather these responsibilties are assigned to the Fiscal Services Unit
supervisor and the deputy comptroller.

The Arizona Deparent of Admnistrtion also is the grantee agency. The agency is
responsible for drwing down Federa funds, disbursing these funds, and reporting
expenditures of State and local funds to FSA. Arzona wil allocate SLIAG funds in
accordance with the published rules and regulations and in direct proportion to the
documented expenses of each requesting entity.


When the single point of contact draws down the money from the Federal Government, it is
deposited into one of two funds accounts. One fund is an account solely for money going to
reimburse county expenses. ,The second is a general fund account used to reimburse State
expenses.

Gn a monthly, quarerly, semiannual , or annual basis, each requesting State or local
government entity wil provide to the single point of contact a report documenting their
expenses for the reporting period. Based on the reported expenditures and in accordance with
the State s allocation , funds wil be drawn and disbursed.

In Arizona, 11 counties are parcipating in the SLIAG program, as well as 5 State agencies.
All parcipants, whether State, local , or private, wil have to provide to the single point of
contact a copy of their contract, if required, or any other document that is required either by
Federal or State law in order to paricipate and receive funds under the progrm.

Arzona s intentions ar to use existing service delivery and funding mechanisms and to use
currnt providers of    services to accommodate the needs of the eligible legalized aliens. The
availabilty of those   services are limited to those generally available to other Arizona residents.



Paricipating service providers   must be able to relate specific costs to services provided to
individual eligible legalized aliens except where Federal regulations permit establishing costs
on the basis of a ratio between the States ' total population and the number of aliens in the
State. The exception primarly relates to public health services. As far as public assistance
              '- '.-




and education are concerned Arzona wi reui that an eligible legalze alien identify
himself by presentig an 1- 688 (Temporar Resident Cad) or 1- 688A (Employment
Authorization Card) issued to him by the Imgration and Natualzation Service (IS).
However, it should be note that the I- 688A does not document that an alien was granted
lawf status, but merely that he or she applied for such status. This card will identify the
eligible legalize alien by an alien registrtion number.
                            FINDINGS AND RECOMMENDATIONS



Both FSA and Arzona were commtted to identiying problems and developing innovative
and effective solutions for them. Immediately following our on-site visits, FSA was given an
outle of the State concerns identied in this report



FINDING: Since 
 1987 FSA has held national conferences and issued information to
States on implementing the SUAG program.


                   The FSA held several national conferences beginning in 1987 to share
                   information with States on SLIAG legislation, the implications for States, the
                   application process, and the documentation of costs.

                   The FSA also provided States with " Question and Answer" issuances and
                   demographic data frm the INS.


FINDING: To facilitate implementing the SUAG program, Arizona took steps to assure
that funds control mechanisms were in place.


                   The Arzona Deparent of Admnistration has established a financial program
                   capabilty in its own computer system , as well as in the Arzona Financial
                   Information System , which will permt reconciling the SLIAG fund. The
                   counties wil receive State warants for their reimbursement requests, and the
                   State agencies wil have the funds deposited diectly to their genera fund from
                   which fundig was appropriated for their operation of the SLIAG program.
                   Pror to initial disburement of SLIAG funds to any parcipating entity,
                   on-site audit wil be performed by the Arzona Deparent of Admnistrtion
                   assure that the entity had identified all expenses properly and maintained the
                   appropriate records. In accordance with the single audit provisions, an annual
                   audit wil be performed for following year.

                   The Arizona Deparent of Health Services used existing contracts with health
                   servce providers for the general population to serve eligible legalized aliens and
                   to maintan records of expenditus. The deparent has established separte
                   accounts for each of these providers in the financial information system.
             Since SLIAG is a reimbursement grant, there should not be a situation where
             there ar any signifcant cash balances. Under the Federal guidelines, the State
             has been advised that they could retain enough funding to provide up to a
             maximum of 3 days expenditures. The State intends to requir expenditure
             documentation prior to drawing any SLIAG funds.


FINDING: The Arizona Department of Education has established a pre-enrollment
appraisal testing program for   eligible aliens.




             Agencies receiving SLIAG funds wil admnister a pre-enrollment appraisal test.
             This test assesses an eligible legalized alien s abilty to speak and understand
             English and know United States history and government. Based on this
             appraisal , they wil be referred to appropriate programs and program levels.
             Supplementing the appraisal test, the pre-enrollment appraisal process wil
             provide information on students ' educational histories, salient demographic
             charcteristics, and data supporting their temporar residency status.




Neverteless, there are some funds control vulnerabilties. Findings and recommendations
concerning these vulnerabilties follow under major topic areas.


PUBLIC ASSISTANCE

Assistance or Service Activities

In Arzona, the admnisterig State agency for public assistance is the Arizona Deparment of
Economic Security. At the time of the review, only three entities were going to apply for
SLIAG public assistance fundig for services provided to eligible legalized aliens. These
included the deparment itself and two counties. These entities do not intend to establish any
new programs due to the availabilty of the SLIAG funding, but to use those existing
progrs generaly available to the population of the State. Basically, any public assistance
provided in Arizona with SLIAG funding wil be by contract with Marcopa and Pima
counties. The State wil provide for services related to emergency assistance, food stamps,
eligibilty determination , and indigent health care.

Documentation of Eligible Legalized Alien Status

The intake application process wil be modfied to identify the eligible legalized alien and
veriy the registrtion number.
Program Costs

Since only thee entities ar applyig for public assistance fundig, they wil establish their
own proedures to determe actual case cost. They wil then be requird to submit a report to
the single point of contact documenting their expenditues for the period for which they are
requestig reimburement. This report wil be reviewed by the single point of contact for
completeness and accurcy of computation.

Administrative Costs



The Arzona Deparent of Economic Securty was developing proedures to determne diect
admnistrative costs. The deparent was reviewing exception time reportg but was also
considerig other options such as time sheets for processing a case. Indiect costs
determned by the appropriate agency for the deparent.

Drawdown of Funds and Cash Balances

The drawdown of funds from the Federal Governent is performed by the Arzona
Deparent of Admnistrtion. The Arzona s Organizational Strctue section of this report
addresses this function.

Interagency trsfer of funds frm the Arzona Deparent of Admnistration to the Arzona
Deparent of Economic Securty wil be based on reimburement of expenditurs incured in
providing servces to eligible legalzed aliens. These expenditues wil   be documented and
accounted for in accordace with Federa guidelines.

The only reports that ar required to be fuished to the single point of contact wil be the
Standa Form 269, a Federal expenditu report However, internal reports will be requird
by the individual agencies to account for the progr aspects of the grant, and these wil be
included in the reuested information section.



PUBLIC HEALTH ASSISTANCE

Assistance or Service Activities

In Arzona, the admisterig State agency for public health is the Arzona Deparment of
Health Services. At the time of the review, 9 of the 11 counties were going to provide public
                             The reason for this is the complexity of claiming
health assistace services only.
reimbursement of SLIAG funds for public assistance costs.
                                       Health Related Activities

                                     For Eligible Legalized Aliens

                              Furnished Directly or Indirectly by Provider

                                                                              PROVIDER
                                                                     State               County
     vital records
     emergency medical services
     child day care
     emefl!encv medical. ambulance
     emerl!encv medical traininl!
     health care licensure
     AIDS epidemiolo!!
     Arzona cancer registr

     bir   defects

     health Promotion and education

     immunization

     infectious disease epidemiology

     investil!ations

     sanitation

     sexually trnsmitted disease control

     tuberculosis control
     vector and zoonotic diseas control

     chronic diseas
     children s rehabiltation services

     consultation and communitv service

     denta health
     State and countY nutrtion services

     perinata care servces

     behaviora health facilties

     State laboratorv

     public health nursing

     family Dlanninl!


     environmental health (air aualitv)

     environmental health (water aualitv)

     environmental health (waste)




Documentation of Eligible Legalized Alien Status

For public health services, the percentage method is used to determine the ratio of eligible
legalized aliens to the population served. Data from the HHS ar used to determine the
number of eligible legalized aliens and special agrcultural workers.
Program Costs


FINDING: The State s plan for claiming public health assistance costs is not in
accordance with prograTn requirements.

Counties providing only public health assistance services plan to use a fonnula based on the
annual budget for each program and compute costs for reimburement. The basis for the
formula is stated in the HHS' rules and regulations for public health assistace. The HHS
regulation 45 CPR 402. 21 (c)(2) provides thee methodologies that can be used to claim costs
for public health assistance. These methods are


             actual expenditures made to or on behalf of identifiable eligible legalized aliens
             who qualify for and receive such assistance and/or services;

             use of a statistically valid sampling of clients in the public health system of the
             State or local government; or

             use of the ratio of eligible legalized aliens in a service population to all members
             of the relevant service population.


RECOMMENDATION: The FSA should ensure that costs claimedfor public health
assistance are in accordance with one of the methods indicated in the HHS regulation.'! and
not based on budgeted costs.


FINDING: The FSA' s definition of public assistance includes some public health
assistance activities which created administrative and service delivery problems for
Arizona s public health agencies.

Several program admnistered by the State s Deparent of Health Services ar considered
public assistace for SLIAG reimburement purposes. The distinction is important because
identiying a service as public assistance requires documentig costs incurrd when services
are provided to individual eligible legalized aliens. If a progr or service is considered
public health assistance, the population ratio method for establishing costs can be used.

While there is no quarel with the logic of FSA' s definition of public assistance versus public
health assistace, the distinction created serious admnistrative and programmatic diffculties
for public health agencies. These agencies, not the public assistance agencies, must develop
and implement new processes for identifying individual eligible legalized aliens in order to
document costs.
Arzona noted that, initialy, FSA indicated that services considered " public health" under the
State s public health plan would also be considered as public health assistace for SLIAG
reimbursement. This position changed in June 1988.

State offcials believe that the defmition of some public health assistance services as public
assistace has limited the extent to which the eligible legalize aliens want to parcipate in
the SLIAG program. There are thee levels of health services, primar, secondar, and
tertar. Under SLIAG, the fit two levels fal under public health assistance, while the third
comes under public assistace. Arzona does not believe it is worth changing the State
system. Furer, they do not want to undergo an audit.

RECOMMENDATION: The FSA should reconsider its position to classif certin public
health assistance services as public assistance and make approprite adjustments to this
position.


Administrative Costs

The progr admnistrtive costs ar those costs associated with admnistering
SLIAG- alowable activities. These costs would be determned based on the accounting
system s identifyg diect and indiect admistrative costs allocable to SLIAG.

Drawdown of Funds and Cash Balances

The drwdown of funds is performed by the Arzona Deparent of Admnistration. The
Arona s Organational Strctu section of this report addsses this function. Since the
cash balances functions are similar in al thee progr aras, please refer to the section under
Public Assistace.



EDUCATION

Assistance or Service Activities

The Arzona Deparent of Education is the admisterig State agency for the education
porton of the SLIAG progr. Educational services to eligible legalized aliens wil be
provided to adults though local educational agencies, community colleges, qualified
designated entities, and community- based organizations. Arzona believes that the limts on
elementa and seconda education are too restrctive and prevent them from including
servces to this grup of children in their SLIAG application.

The deparent is designed to meet the needs of eligible legalized aliens whose lack of
literacy, basic English language, and/or citizenship skills prevents them from succeeding in
school or qualfying for their adjustment to permanent resident status and eventually U.
citizenship.
The deparent's    adult education progrs includes adult basic education and English as a
Second Language. To enroll in these progrms an eligible legalized alien must be 16 years of
age or older and need educational assistace in speakng, readig, or wrting English below
the eighth grade. This excludes any high school level classes or Genera Education
Development classes.

FINDING: The Arizona Department of Education may be claiming nonallowable costs as
SLIAG-related costs for   education.

The curculum for Adult Education Program is a sequential progr of instrctions
designed to



              develop and compose communication and handle the computational skills of
              adults;

              raise substantially the general educational level of adults to make them less
              likely to be dependent on others;

              improve their abilty to benefit from some occupational training;

              expand and increase opportunities for more productive and profitable
              employment; ard



              make them better able to meet their adult responsibilties as parents, citizens, and
              workers.



The SLIAG regulation 45 CFR 402. 2 defines educational activities approved for adult eligible
legalized aliens. These activities include:



              instrction in basic   skills to enable adults to function effectively in society,
              including the   abilty to speak, read, and wrte the English language;



              instrction leading to the equivalent of a certficate of    grduation from a school
              providing secondar education;

              instrction for adults with limited   English proficiency;

              instrction in citizenship skills; and
                ancilar services, such as educational counseling, transportation, and day care
                provided to individuals who receive educational services.



Vocational education services are not authorized under the Adult Education Act and may not
be claimed as an alowable SLIAG-related costs.

The curculum of the State, which refers to occupational trning  and increasing opportunities
for more productive and profitable employment raises questions as to whether the State is
fundig vocational education coures.
RECOMMENDATION: The FSA should ensure that SLIAG funds are                   being used only for
approved adult education activities.

Agencies receiving SLIAG funds wil admnister a pre-enrollment appraisal test to assess an
eligible legalized alien s abilty to speak and understand English and know United States
history and government. Based on this apprasal, they wil be referrd to appropriate
progrms and progr levels. Supplementig the appraisal test, the pre-enrollment appraisal
process wilI'proVide information on students '   educational histories, salient demographic
characteristics, and data supportng their temporar residency status.

Documentation of Eligible Legalized Alien Status

Providers wil indicate and document the number of eligible legalzed aliens who were
positively identified during the fIrst three quarers of FY 1988 and wil project the number of
eligible legalized aliens who are to be served during the last quarer of FY 1988, ending
September 30, 1988. At the end of the progr year, provIders would submit final claims for
SLIAG reimbursable services that have been provided.

Although some eligible legalized aliens had been served through the Arizona Adult Basic
Education program prior to the SLIAG program , the Arzona Deparment of Education had
not been documenting services for these individuals. While the deparment wil be identifying
and documenting such services now, offcials did not anticipate seekig SLIAG funds
retroactive I

Program Costs

As a rule, reimbursement for all educational serviCes provided wil be determined by
multiplying the adult school rate (currntly $3. 00 per student hour) by the number of hours the
student is in class, up to a limit of $500 per student per Federal fiscal year. A higher cost per
instrctional hour may be considered in funding projects offering educational services for
lower functioning eligible legalized aliens. Assessment costs need to be identifed separately
because such costs are not considered instrctional.
Complete and accurte reportng by each project is vita to the overal operation of the SLIAG
progr. The Arzona Deparent of Education, Comprehensive Traning Unit, will design a
project reportng formt to collect student enrllment and attendace, separation information
grade level of student s curculum , student progression, and other statistical informtion.
This information wi be reported to the SLIAG single point of contact who wil in    tu   report
it to FSA.

Puchasing equipment items is not encouraged as a genera rule. However, where justified
and reasonable, all approved equipment items wil appear in the equipment category,
regardless of unit cost, and under the assigned instrctional servce. The Arzona Deparment
of Education has full disposition authority for al equipment purchased with SLIAG funds. If
a project is termated the Arzona Deparent of Education reserves the right to move such
equipment to Arzona Deparent of Education projects curently serving eligible legalized
alens. Requests for equipment items to be used in support of admnistrtion or ancilar
services are subject to approval on a case by case basis.

Providers of adult educational servces, including school distrcts (unified school distrcts and
high school distrcts), community colleges, community- based organizations, and qualfied
designated entities, wi receive SLIAG funds on the basis of the number of eligible legalized
aliens aleady being served and a budget for the number estimated to be served in the future.

FINDING: The State has no pllns to deduct program income from SLIAG-related costs.
In Arzona, an education provider may levy a $10 registrtion fee for adults to cover reportng
requirements under SLIAG. No other fee, includig tuition , may be charged to students
receiving educational servces, the cost of which is reimburement though SLIAG.

The SLIAG regulation 45 CP 402. 2 states that progr income (as defined in 45 CPR
74.42) must be excluded from SLIAG-related costs. States must calculate SLIAG-related
costs net of progr income. The fee being charged by educational providers would be
considered as program income.

RECOMMENDATION: Arizona should ensure that program income is properly deducted
from SUAG-rellted costs before reimbursement is cllimed by educational providers.

Administrative Costs



All provider costs budgeted and expended under admnistrtion are limited to 10 percent of
the project reimburement ceilng. Indict costs are budgeted only under admnistrtion and
may not excee 8 percent of the project total; these costs ar to be included within the 10
percent limtation.

Drawdown of Funds and Cash Balances

The drwdown of funds is performed by the Arzona Deparent of Admnistration. The
Arzona s Organational Strctur section of this report addsses this function. Likewise,
cash balances functions are simiar in al   thee progr   aras and should be referenced under
ths section for Public Assistace.



CROSSCUTTING ISSUES

Arzona initially believed that the SLIAG progr was to be implemented easily, without
extensive new processes or program, so that the services could be provided in a tiely
manner using the existing public assistace and public health assistace program. It did not
happen ths way. The State indicated it was experiencing far more diffculties than they
originally expected. As a result, it has experienced a lack of interest by counties in
parcipatig in the SLIAG program. At the tie of the review, only 2 of 11 counties were
parcipatig in both the public assistance and public health assistance progrs. The
remag nine counties only parcipate in the public health assistace program.
FINDING: The FSA application reviw process created a number of signifcant problems
for Ariona. Also, the FSA' s applicatin review process interfered with the State s abilty to
plan for services.


              Delay in FSA issuing the implementing regulation resulted in the State
              inabilty to properly plan for SLIAG.



              Numerous policy misinterpretations and disagreements resulted because FSA
              did not provide defmitive wrtten instrctions to assist Arzona in understanding
              SLIAG application requirements.

              The time frames were too shott for submitting the initial SLIAG application
              review and comment, and revisions of the application.

              Implementing SLIAG- funded programs was delayed because of a significant
              delay in notifying Arzona of the grt awar.

             No formal appeals process exists if progrms or costs ar   denied in   the fIrst level
             review.



Accordig to fmal regulations published Marh 10, 1988, States had to submit the FY 1988
application no later than May 16, 1988. Revisions to the application had to be submitted by
July 1 , 1988, and the FY 1989 application had to be submitted no later than July 15, 1988.
Due largely to these short time frames, FSA provided no formal feedback on revisions
necessar in Arzona s FY 1988 application. The information was trsmitted by telephone or
in meetings. The time frames to make necessar revisions did not accommodate the
organizational strctu or the need to communicate with or seek approval from the program
components impacted by revisions requested by FSA. Although some changes had a major
effect on programs and grant amounts, the single point of contact received no official rationale
from FSA for requestig these changes.

RECOMMENDATION: The FSA should make its application and grant process more
orderly. Specifcally, FSA should

             provide definitive wrtten instrctions on the SLIAG application requirements
             and establish a dialogue with Arzona on SLIAG policy, compliance, and
             reportng issues to minimize the confusion that occured in the initial application
             process;

             ensure that sufficient time is allotted to the application process including
             Arzona s initial application , FSA' s review and formal comment, Arizona
             consideration of FSA comments and negotiation of disputes, and its submission
             of the revised application for FSA approval;

             develop an appeals process to use if programs or costs associated with providing
             services are denied in the initial application process; and

             revise the grant award process for approved applications so that the notice of
             grant award reaches Arzona prior to the beginning of the fiscal year.
                          OIG RESPONSE TO COMMENTS


The FSA and the State of Arzona both commente on the drt report.

The FSA

The FSA has generaly    agr   with the OIG report fidigs and reommendations. The FSA
has taen a number of steps to improve implementation of the SLIG progr includig
claryig program policies and proedurs. In the report the State had severa concerns about
the FSA adstrtion of the program We have moded cert aspects of the report based
on the commnts reeived from FSA.

The FSA questioned the statement that the new population would significantly increase public
assistace and public health assistace servces. Early estiates indicated that large numbers
of alens would qualy to access the SLIAG program. The report recogn that information
obtaed durg the review determed that substatial incrases in workload and
expenditus could occur in these aras as well as in education. However, we understad from
recent discussions with States ' offcials that demand for servces nationaly is faling behind
earlier projections.

The FSA' s   defition of public assistace include public health activities which crated
                                                    some
adstrative and servce delivery problems for Arzona s public health agencies. The OIG
recommende that FSA reonsider this position.

The FSA replied that they se ths   priary as an issue of cost identication and that they wil
work with the States to develop methods of documentig costs which ar consistent with
FSA' s responsibilties as stewars of public funds. We believe that FSA's actions to identify
alternative methods is responsive to our concerns.

We continue to believe that a strct interpretation which permts public health costs to be
claime only for speifc eligible legalze alens is burdensome to the States and, in many
cases, would reuire considerable revisions to the States ' system or statutory requirments.
However, we do agr that FSA' s use of alternative systems, such as the Cost Documentation
System and a revised population ratio method system which reflects usage, would be a
positive effort to enhance cost effectiveness without reuirg States to develop new systems
or make considerable revisions to present systems. The population ratio method could be
revised to consider not only eligible legalize aliens in the servce population, but use of those
services by the eligible legalize alien population based on information alady obtaned from
progr experience. Where appropriate, other alternatives might be used which would
produce a more effcient system for the States and adess congrssional intent that the States
would not be required to establish new or elaborate systems.
We report that no formal appeals ' proess exists if     progr costs ar denied in the fIrst level
review. We agree with FSA'     s statement  that the Grant Appeals Board does have jursdiction
over mattrs for witholdig and repayment of SLIAG fuds. However, it was the States
concern that an effective appeals mechansm be in plac for issues involving program or
costs at the fIrst level of FSA' s review in the application proess.

The FSA mad numrous comments to clar cert mattrs of fact, policy, or procedur.
We have included these comments verbati in Appendi B.

The   Stae of Arizona

The State has generay   agr with the OIG report fidigs and reommendations. Their
comments ar include verbati       in Appendi C. The comments have clared several of the
State s proesses, organzational strctu,    and   concerns noted at the time of the OIG on-site
review.

Recognition is ma     of the State s concern regarding classification of some public health
assistace activities as public assistace. Reference should be mae to our comments above
concerng ths issue as adssed to FSA.
 APPENDIX A



GOOD PRACTICES

                                                                                . ,. ­ ' '   ' :




A number of practices have been identified that other States could shar.

    Pror to any disburement of SLIAG funds to parcipating entity, an on-site audit wil be
    performed by the Arzona Deparent of Admnistrtion to assure that the entity had iden­
    tified all expenses properly and maintaned the appropriate records. For the following
    years, in accordace with the single audit provisions, an annual audit will be performed.


     The Arzona Deparent of Health Services used existig contracts with health service
     providers for the genera population to serve eligible legalize aliens and to maintan re­
     cords of expenditus. The deparent has established separte accounts for each of
     these providers in the financial informtion   system.




     The State intends to require expenditue documentation prior to drawing any funds. As
     such , the only tie any fundig balance should exist would be while the State s claim for
     payments is being processed.


     Agencies receiving SLIAG funds wil adnister a pre-enrollment appraisal test. This
     test assesses an eligible legalizd alien s abilty to speak and understad English and
     know United States history and government. Based on this appraisal , they wil be re
     ferred to appropriate progrs and progr levels. Supplementing the appraisal test, the
     pre-enrollment appraisal proess wil   provide informtion on students '   educational histo­
     ries, salient demographic characteristics, and data supportng their temporar residency
     status.
              APPENDIX B



FAMIL Y SUPPORT ADMINISTRATION'S COMMENTS

'''   ,.




                       DEPARTMENT OF HEALTH &. HUMAN SERVICES	           Family Su   ort Administration

i E
                                                                         Memorandum
           Date:       . August 25, 1989
           From:        Acting Assistant Secretary

                          for Family Support

           Subject:	    OIG Draft Report: Implementation of the State Legalization
                         Impact Assistance Grants Under the Immigration Reform and
                         Control Act of 1986 - State of Arizona (OAI-07-88-00441)
           To:
                         Richard P.    Kusserow

                         Inspec tor   General

                         Attached are the Family Support Administration comments on

                         the above report. Hany of our comments are technical in
                         nature due to the complexity , of the legislation and the
                         fact that the SLIAG program was very new at the time of the

                         rev iew.
                         We appreciate the assistance and cooperation we have

                         received from you in response to our req est to conduct this

                         round of reviews of the SLIAG program. The reports we
                         received are very useful to us in understanding how States
                         are implementing the program.




                          Attachment
                                                             ,.. 

                                                          :: .   ' .




                        OIG DRAFT REPORT:

    Implementation of the state Legalization Impact Assistance

                                Grants
      Under the Immigration Reform and Control Act of 1986 ­

                         state of Arizona

 The Family support Administration I s comments are divided into
 three sections: Comments    on background information and other
 narrative material that does not relate directly to the draft
 report I s findings, comments on the findings, and responses to the
 draft report I s recommendations.

 Narrative:
 Page 1 (Background) -- The draft report says , "This new

 population will increase the demand for state public assistance

 and public health assistance services significantly.    The draft

 report isn't clear whose conclusion this is or upon what data and

 analysis the conclusion is based. The final report should

 clarify these points.


 In the course of implementing SLIAG, we have discovered that
 neither state and local public health programs nor, with few
 exceptions, public assistance programs, inquire about legal
 status. This suggests that at least some aliens were using
 these services before legalization and .that newly legalized
 aliens do not represent a " new population" for public assistance
 and public health assistance   services. Preliminary cost data
 from states suggests that newly legalized aliens are accessing
 public assistance services at rates far lower than the general
. population. There are indications that a backlog of publ
 health needs existed and was identified during the medical
 examinations required of all applicants for legalizations.
 However, there is no data to suggest that, other than this
 temporary bulge in demand for public health services, newly
 legalized aliens will generate a significant increase in de and
 for public health assistance or public assistance services.
 Page 2 (Background) -- The draft report says, "states must
 develop a method acceptable to FSA for determining
 administrative costs. We note that several methods for
 determining the share of administrative costs in ongoing
 programs that are allocable to SLIAG and which are accept 1: . '
 Driori are specified in the regulation at 45 CFR 402. 22 (b:.         rhe
 process of determining SLIAG administrative costs (those
 incurred in administering the SLIAG grant itself), like               )sts
 associated with administering HHS grants, is governed ty
 Parts 74 and 92 and relevant OMB circulars.

 Pages 3-4 (Arizona I s Organizational structure) -- The

 report says that, for public assistance and education

 services, the state will require that eligible legalL'

 be identified. by an I-688 (Temporary Resident Card) or an I-688A
 (Employment Authorization          Card).
                                     The report should make clear
 that the I-688A does not document that an alien was granted

 lawful status , merely that he or. she applied for status. Use
 SLIAG funds for public assistance and educational service is

 limited to costs associated with aliens. who have been granted
 lawful resident status and, therefore, are " eligible legalized
 aliens. The effective date of this status is the date the
 application was filed with         INS.
                                   This means that, as a practical
 matter, the cost of public assistance and educational services

 provided to individuals while their applications were pending

 with INS are allowable if the applications were approved, but not

 if they were denied.


 Public Assistance:


 Page 5 (Assistance or Service Activities) -- The draft report
 states that government entities seeking SLIAG funds for public
 assistance "do not intend to establish any new programs due to
 the availability of the SLIAG funding, but to use, with necessary
 modifications, what they have available now. II It is important to
 note that all programs of public assistance must meet three
 cri teria.   First they must be generally available to the
 population of the State. Secondly, they must be means-tested.
 Lastly, they must provide for the subsistence or health of the
 individual. The requirement that the programs be generally
 available would preclude the State from developing any programs
 for " eligible legalized aliens" It is not clear what is meant
 by II necessary modifications. II The final report should make
 clear how Arizona I s plans relate to the statutory definition of
. public assistance.
 Page 6 (Administrative Costs) -- The draft report says that the
 Department of Economic Security was developing procedures to
 determine direct administrative costs, and lIindirect costs are
 determined by the appropriate agency for the department.
 note that several methods for determining the share of
 administrative costs in ongoing programs that are allocable to
 SLIAG and which are acceptable 
a Driori are specified in the
 regulation at 45 CFR 402. 22 (b). The process of determining SLIAG
 administrative costs (those costs incurred in administering the
 SLIAG grant itself), like all costs associated with
 administering HHS grants, is governed by 45 CFR Parts 74 and 92
 and relevant OMB circulars. The final report should make that
 point clear.
 public Health Assistance


 Page 6 (Assistance or Service Activities) -- The draft report
 says, "At the time of the review, 9 of the 11 counties were going
 to provide public health assistance services only.  The reason
 for this is the complexity of claiming reimbursement of SLIAG
funds for public assistance costs. The final report should make
clear that the availability of services to eligible legalized
aliens is not an issue for public assistance or public health
assistance programs. In both of. these categories, use of SLIAG
funds is limited to programs that are generally available to the
population.   Thus, all services for which SLIAG reimbursement
could be claimed are available to the general population without
regard to " eligible legalized alien" status. Because of
differences in the way the terms " public assistance" and " public
health assistance" are defined in IRCA, there are differences in
required cost documentation. (This issue is discussed in more
detail below.    However, we have made available to states a
numer of ways to determine allowable costs in public assistance
programs that do not require setting up complex administrative
structures or checking immigration status of program
participants. The final report should make these points.
Page 9 (Administrative Costs) -- The draft report says that
program administrative costs " would be determined based on the
accounting system I s identifying direct and indirect
administrative costs allocable to SLIAG.     The report should
make clear that, as discussed above, the regulation sets
standards for determining program administrative costs.
Generally, the first step in calculating SLIAG-related program
administrative costs is to determine total program
administrative costs , and then to determine the proportion of
these costs attributable to SLIAG by using one of the two
methods specified in the regulation or another method that
charges to SLIAG the proportion of program administrative costs
that are attributable to elig ble legalized aliens.

Crosscuttinq Issues
Page 13 -- The draft report says that "Arizona initially
believed that the SLIAG program was to be implemented
easily. . . so that the services could be provided in a timely
manner to the eligible legalized aliens.      The final report
should make clear that the availability of public assistance and
public health assistance services to newly legalized aliens is
not an issue. Only the cost of providing to this population
those pUblic assistance and public health assistance services
that are generally availabl to the population may be charged to
SLIAG. Thus, no costs associated with public assistance or
public health assistance activities directed specifically to
eligible legalized aliens may be charged to SLIAG.
Findinqs:

Finding:

             since 1987, FSA has held national conferences and
             issued information to states on implementing the SLIAG
             program.
Comment:
             since the OIG' s onsite visits in August 1988, we have
             continued to provide assistance to states. We have
             conducted several more workshops and meetings to assist
             states in implementation. In October 1988, we issued a
             compendium incorporating the extensive formal guidance
             previously provided to states on methods of cost
             documentation. We also have provided assistance to
             individual States in the form of correspondence,
             telephone consultation, and onsite technical
             assistance. We are in the process of conducting
             initial program reviews of the major States, including
             Arizona, which we visited in June 1989. We request
             that the final report reflect this continuing dialogue
             with states.
Finding:
             The State's plan for claiming public health assistance
             costs is not in accordance with program requirements.

Comment:
             While it is not clear what is meant by the explanation
             for this finding, the draft report appears to say that
             using the annual budget for a program in the population
             ratio method is not consistent with Federal regulation.
             We require that costs be determined based on net state
             or local government cost.   In the population ratio
             method, this cost is multiplied by the ratio of
             eligible legalized aliens in the program' s service
             population to all members of the service population.
             The " annual budget" for a program may or may not be the
             net State or local government cost. The final report
             should make clear how the population ratio works and
             that net state and local government costs must be used
             in making calculations under that method or any other
             method.
Finding:

            The FSA' s definition of public assistance includes
            some public health activities which creates

            administrative and service delivery problems for

            Arizona' s pub1 ic health agencies.
Comment:
            We question how the def nitions of public health and

            public assistance create service delivery problems for

            Arizona public health agencies. By statute and

            regulation, all programs or activities under both

            categories must be generally available. In practice,

            this means that SLIAG funds are available only to

            reimburse costs in ongoing, generally available

            programs. In most programs, immigration status is not
            a condition of eligibility. If the alien is eligible

            for services, he or she would receive those services

            regardless of whether they were reimbursed under

            SLIAG. The final report should clarify this point.
            Page 8 of the draft report notes that "there is no

            quarrel with the logic of FSA' s definition of public

            assistance versus public health assistance, " but does
            not explain that logic or why the OIG recommends that
            FSA reverse its logic. The final report should explain
            that the regulatory definitions of public assistance
            and public health assistance 
 re based directly on

            section 204 of the Immigration Reform and Control Act

            of 1986 (IRCA), which created SLIAG.

            Programs of public assistance are defined as programs
            that " provide for cash, medical or other
            assistance. . desiqned to meet the basic subsistence     or
            hea1th needs of individuals " (section 204 (j) (2) (A)
            emphasis added). Consistent with IRCA' s explicit
            inclusion of medical assistance under the public
            assistance category, state or locally funded programs
            that provide medical treatment to needy individuals are
            considered by FSA-   to   be public assistance.
            IRCA defines programs of public health assistance as
            programs which " providepublic health services,
            including immunizations for immunizable diseases,
            testing and treatment for tuberculosis and sexual1y­
            transmitted diseases, and family planning services"
            (section 204(j) (3) (A)). These statutory definitions
            and the legislative history indicate that Congress
            intended to allow certain traditional public health
            functions under the public health assistance category
                                                                            ..   :.:.
                                                                                  \-




and' medical assistance to the needy under the public
assistance category. In  implementing SLIAG, we have
followed that statutory framework. We   have defined
public health assistance as, among other things,
programs or activities that " are provided for the
primary purpose of protecting' the health of the general
public" (45 CFR 402.                            2).
                         The scope of programs included
in that regulatory definition of public health
assistance goes far beyond the specific activities
listed in the IRCA.

The public assistance/public health assistance
categorization issue is primarily one of cost
documentation requirements, not the allowability of
costs associated with any particular health program.
Without the distinction between categories, Arizona
would likely use the population ratio method to
establish costs for all programs run by the Department
of Health Servi.ces. Implicit in this method is the
assumption that eligible legalized aliens will access
programs in the same frequency and at the same cost as
the general population. We do not believe this
assumption to be appropriate for medical assistance
programs that provide treatment to needy individuals.
To the contrary, the information that we have to date
indicates that allowing use of the population ratio
method for these programs generally would overstate
costs, dramatically in some cases. However, we would
be willing to allow use of the population ratio method
for any program for which there is an emcirical basis

to indicate that doing so would not overstate costs.
FSA realizes that many public assistance and public
health programs do not routinely collect information on
immigration status but has found many do collect social
security numbers. That is why we funded and devoted
substantial staff resources to developing a syste that
matches the social security numbers of program
participants with those of newly legalized al iens .
This system gives states information on the nu
 bc
newly legalized aliens participating in a progr3                                        1nd
the cost of services to them.  It is now avaiL                                          ' and
allows states to establish costs for FY 1988 as 
                                         1 as
current and future years.                             We also have sent S

SLIAG Single Points of Contact suggestions for .'
possible methods for establishing costs. None                                             ese
alternative methods requires setting up new
administrative mechanisms or checking status
program participants.

The draft report says on page 8        init i                     that,
indicated that services considered public h
             the " State' s public health plan would also be considered
             as public health assistance for SLIAG reimbursement.
             This position changed in June 1988.   It is not clear
             precisely to what this" statement refers. However, any
             statement that may have been made about classification
             of programs and activities would have been predicated
             on the statutory definitions of public assistance and
             public health assistance.
             On page 9, the draft report says, "state officials

             believe that the definition of some public health

             assistance services as public assistance has limited

             the extent to which the eligible legalized aliens want

             to participate in the SLIAG program.    It is not clear

             to what this refers , but it appears that the statement

             is based on the mistaken assumption that checking

             immigration status of program participants is the only

             way to document cost. As noted above, states have

             several options for establishing public assistance

             costs that do not require checking immigration status

             of participants.


             The draft report on page 9 also says Arizona agencies
             "do not want to undergo an audit. SLIAG is covered by
             the Single Audit Act. Whether SLIAG transactions are
             selected for audit or not is not related to the
             category of services or the method the state uses to
             establ ish costs.

             We will continue to work closely with Arizona to

             develop methodologies to document costs for all

             programs in its approved applications.

 Finding:
             The Arizona Department of Education may be claiming

             nonallowable costs as SLIAG-related costs for

             education.
. Comment:
             The draft report says , correctly, that SLIAG funds may
             not be used for vocational education services.
             However, the list of goals of Arizona' s program of
             educational services for the newly legalized
             population appears to be consistent with the
             regulation and the Adult Education Act. The cost of
             providing basic education or English language
             instruction designed to 
   prepare an individual for
             vocational or job training programs, to provide an
             individual with the English language or basic

             education skills needed to qualify for better jobs , or

           to enable an individual to meet their responsibilities
           as parents, citizens, and workers is allowable.
Finding:
           The FSA application review process created a number of

           significant problems for Arizona. Also, the FSA'
           application review process interfered with the State'

           ability to plan for services.

Comment:
           The draft report says that the time period for
           sUbmission, review , revision and approval of the
           initial application was too short. We agree that it
           would have been preferable to have had a longer period
           of time between the publication of the final regulation
           and the deadline for submission and approval of FY 1988
           and FY 1989 applications. However, the final report
           should note that, because of the way IRCA set up the
           allocation formula, one maj or reason for the compressed
           timeframe was that we could not award funds to any
           state until all States' applications had been
           approved. In order for us to run the allocation
           formula, which IRCA requires to include estimates of
           costs, we must hav approved estimates for all states
           before we            can calculate States I allocations.
           The draft report says that " numerous policy

           misinterpretations  nd disagreements resulted because
           FSA did not provide definitive written instructions to
           assist Arizona in understanding SLIAG application
           requirements. Had there been more time, we would have
           communicated more extensively in writing.
           The report says no formal appeals process exists if

           programs or costs are denied. The Grant Appeals Board

           has jurisdiction over issues related to the withholding

           and repayment of funds. For other matters, the state

           may follow normal procedures for disagreeing with an

           agency finding.
           The draft report on page 13-14, says that the single
           point of contact " received no official rationale from
           FSA for requesting... changes" in the application. The
           final report should note that FSA informed Arizona that
           the activities in question did not meet the statutory
           and regulatory criteria for public health assistance.
           In addition, guidance on allowable activities issued
           to states on June 17 , 1988 described in great deta i 1
           the kinds of activities which met the criteria for
           public health assistance and those that met the

                                        B --­

            criteria for public assistance and how to distinguish

            between the two categori€s.


Recommendations:
Four of the draft report' s recommendations propose action on the

part of FSA:
Recommendation :
            The FSA should ensure that costs claimed for publ 

            heal th assistance are in accordance with one of the

            methods indicated in the HHS regulations and not based

            on budgeted costs.
Response:
            The regulation not only specifies three ways in which

            public health assistance costs may be determined, but

            also provides for use of another reliable method

            subject to Federal review. Whether it is appropriate
            to use "budgeted costs" is not related to the method

            chosen. The total cost that should be used in the

            population ratio method, to' determine average costs,
            for any purpose is net state and local government cost.
            The "budgeted cost" may or may not constitute SLIAG-
            related cost as defined in the regulations at 45 CFR
            402.
            We review every aspect of costs submitted by states to

            ensure that costs claimed are allowable and allocable

            to SLIAG.


Recommendation:
            The FSA should reconsider its position to classify

            certain public heal th assistance services as publ
            assistance and make appropriate adjustments to this

            position .
Response:
            As discussed above, the primary issue relating to the

            definitions of public assistance and public health

            assistance is one of cost documentation. states would
            like to use the population ratio method for all

            programs run by their health departments. The f i na 1
            report should clarify whether the OIG is recomme jing
            that we allow use of the population ratio in prc

            where, as discussed above , its use would likely

            overstate actual costs.
            We believe that using the population method for all

            programs run by State health departments would be

            inconsistent with our responsibility to exercise fiscal

            responsibility in administering SLIAG funds.     However,
            we recognize that some states may encounter

            difficulties in establishing actual costs, especially

            where ELAs are a small percentage of a State I s
            population or for programs that few ELAs access. We

            will continue to work with states to ensure that a

            method is available to allow them to establish actual

            costs for each program in their approved applications

            consistent with our responsibilities as stewards of

            publ ic   funds.
Recommendation:
            The FSA should ensure that SLIAG funds are being used

            only for approved adult education activities.

Comment:
            We review closely the description of programs or 

            activities included in states ' .. SLIAG applications and
            obtain more information if there is any doubt about

            whether costs associated with a program or activity are

            allowable.   Checking to see that all programs or
            activities for which SLIAG funds are being claimed fall

            within the scope of one of the categories of services

            as defined by IRCA and the SLIAG regulation, is a part

            of all of our program reviews.


Recommendation :
            The FSA grant process should be made more   orderly.
Response:
            Some of the specific recommendations refer to the
            application process. We agree that the application
            process should be conducted in a more orderly fashion
            than was the case for the initial submissions. As the
            draft report indicates, the timeframes for the FY 1988
            and FY 1989 application processes were necessarily
            short.  In effect, the States and FSA had to complete
            two application processes in less than a year. We
            not expect similar problems for the FY 1990 and FY 1991
            application processes.
. "




      To ensure that states have adequate time to prepare
      their FY 1990 applications based on empirical data, we
      have extended the dead I ine from July 15 to October
      Addi tionally, we have encouraged states to submit as
      early as possible any new program descriptions,
      questions or iss es, and have' advised them that they
      may submit all or portions of their applications at any
      time.   In order to reduce the possibility of misunder­
      standing, we have advised states that we will communi­
      cate all substantive questions and concerns on their FY
      1990 applications in writing, as was done for states
      end-of- year reports. We issued extensive written
      guidance on the FY 1990 application process and the
      standards we will apply.
      The draft report on page 14 recommends that we " revise
      the grant award process for approved applications so
      that notice of grant award reaches Arizona prior to the
      beginning of the fiscal year.    Under the regulation,
      that is not possible.  For FY 1990, the deadline for
      submitting applications is October 1, 1989, and

      applications must be approvable by December 15, 1989.

      While we cannot run the allocation formula or award

      grants until all states I applications are approved, we
      expect to run the formula in January                1990.
                                                    However,
      states have told us that,  because they have  FY 1988 and
      FY 1989 funding that they can carry over into FY 1990,
      the delay will not be a problem for                 them.
                                                   For FY 1991,
      the deadline for filing applications is July 15, 1990,
      and applications must be approvable by October 1, 1990.
      We expect to run the allocation formula and prepare
      grant awards early in FY 1991.

      The draft report also recommends that we develop an

      appeals process to use if programs or costs associated

      with providing services are denied in the               initial
      application process. We do not believe such a process
      is necessary. The Department I s Grant Appeals Boa rd has
      jurisdiction over cases involving the repayment or

      withholding of                      funds.
                             Normal channels within the
      Department are open to states that disagree with

      decisions made during the course of application 
                 v iew.
             APPENDIX C



STATE   OF   ARIZONA' S COMMENTS
               )//


ROSE MOFFORD                                                                    CATHERINE R. EDEN
  GOVERNOR                                                                           DIRECTOR


                           ARIZONA DEPARTMENT OF ADMINISTRATION
                           STATE CAPITOL. 1700 WEST WASHINGTON , ROOM 290
                                       PHOENIX, ARIZONA 85007
September 20, 1989

Don McLaugh in, Regiona Inspector              General
Office of Inspector Genera
Federal Office Bui ding
601 E. 12th Street, Room 284B
Kansas City, Missouri 64106


Dear Mr.     McLaughlin:


Enclosed p ease find Arizona    comments on the draft report
entitled   Implementation of the State Legalization Impact
               ft
Assistance Grants Under the Immigration Reform and Control Act
of 1986 - State of      Arizona. 

Our review consists               of updated informa
corrections to some discrepancies in your
                                                     ion
                                               report.
                                                                            well


If you should
(602) 542-5405.

                      have    any further questions please contact me at



     !relY,
iU??
Wendy H. Hammon

Single Point of Contact


Enclosure
                             STATE OF ARIZONA


Comments on the Office of Inspector GeneralReport:
Implementation of
Grants-Arizona
                       the State Legalization Impact               Assistance

Page ii


    Second Finding: The Arizona Department of Health Services
did
to   not set up new contracts with providers to provide services
    Eligible Legalized Aliens. These contracts have existed for
years and are for the purpose of providing health services to
the general   population.
Page iii

    First Finding: The method referred to was used for SLIAG
applications in   fiscal years 87, 88, and 89. Actual costs are
used for claiming reimbursements and end- of- year reports.

    Second Finding: The FSA' s defini tion did cause some
administrativeproblems relating           to reimbursement. It did not,
however, cause service delivery           problems since the programs
existed prior to the implementation of SLIAG.
    Third Finding: Arizona         is not using SLIAG funds to provide
vocational training     to
                       E. L. A. ' s. The             State
                                                Department of
Education is providing ESL/Civics classes which help to better
integrate the E. L. A. ' s into our        society and make them more
productive in     the   workplace,
requirements for citizenship.
                                           as well as meet the INS
    Fourth Finding:     The State Department of Education              assures
that all reimbursements are net of any fees received.

Page 3

    First Paragraph: The                        Accounting
Special Assistant now serves as the Single Point ofAdministrator
                                       State
has overall responsibility for the SLIAG program. TheContact, and
                                                       day-to-day
activi ties of administering SLIAG are assigned to the Special
Projects Unit.
    Third Paragraph: There are two funds used for accounting
for  SLIAG finances. One fund is used to reimburse county
expenses. The other is used to reimburse state             expenses.
    Fifth Paragraph:        In Arizona, . 13   counties now participate in
the SLIAG   program.
Page 4

    Last Paragraph:    See comment under Page        ii.
Page 5


    Paragraph under W Assistance or Service Activities


-Public Assistance is, and always has been, provided by all
fifteen counties as well as the state. No specific contracts
exist withPublic
              Maricopa and Pima counties solely for the purpose of
                    Assistance to E. L. A. ' s. Public Assistance is
providing
generally available to the entire population.
-In   Arizona, the administering state agencies forEconomic
assistance includes      not  only  ' the  Department   of
                                                              public
Security, but also the Arizona Health Care Cost Containment
System (AHCCCS) and the Department of Health Services.
-No modifications have been made to any public assistance
programs.
  Prima county should read Pima county.
Page 6

    First Paragraph:     Nine entities have currently applied for
public assistance funding in Arizona.
    Last Paragraph: All 15     counties in Arizona provide Public
Heal th                                 to the general population.
          and Public ' Assistance services
However, 8 of the 13 participating counties are going to provide
public health assistance services only.
Page 7

    First Finding:    See comment under Page iii, First Finding.

Page 9


is First Paragragh:      The statement
   worth changing the State
                                      Arizona does not believe it
                                       system
                                           is misleading. Arizona
does  not want to produce any additional administrative burden in
documenting expenses allowed under SLIAG.
The last sentence states that w Further, they do not want to
undergo an audit. W This is an      untrue statement which was never
used by the State of Arizona. The state realizes      that under the
Single Audit Act, a grant recipient is subject        to audit on an
annual basis.
Page 10

    First Finding: See comment under page       iii,   third finding.

Page 12

    First Finding: See comment under page iii, fourth         finding.
Page 15

    #2:    See comment under page ii
